          Office of Inspector General




September 29, 2005

KEITH LASHIER
ACTING VICE PRESIDENT, FACILITIES

SUBJECT:       Audit Report – Maintenance Offices’ Acceptance of
               Facilities Repair and Alterations Projects in the Southeast Area
               (Report Number FA-AR-05-001)

This report presents the results of our self-initiated audit of Maintenance Offices’
Acceptance of Facilities Repair and Alterations Projects in the Southeast Area (Project
Number 05XG012FA000). Our objective was to evaluate the acceptance rates for
facilities repair and alteration projects by the maintenance offices in the Southeast Area.

                                        Background
Facilities is an enabling organization within the Postal Service, whose primary mission is
to provide quality real estate, facilities products, and services to meet the present and
future needs of Postal Service operations. Organizationally, Facilities is comprised of a
headquarters organizational unit, with eight supporting facilities service offices (FSOs)
throughout the country.

Facilities reengineered their support process by developing the Facilities Single Source
Provider (FSSP) program. The FSSP program is a “shared service” concept that
created a single point of contact for all facility work within a Postal Service area. Under
the FSSP program, all facilities services previously provided by the FSO, the
Administrative Services Office, and the Area Processing and Distribution team were
incorporated under the management of the FSO. In addition, the FSO assumed facility
repair work and lessor maintenance enforcement services that postmasters previously
managed.

One component of the FSSP program is the Response Line, a toll-free number that
allows Postal Service personnel to report all facility repair needs. Dedicated personnel
manage the response line and record each problem in the FSSP Web-based tracking
system. The FSSP system contains a report-generation function that management
uses as a tool for workload management and budget planning. The system generates a
customer satisfaction survey for every FSO-managed problem. Additionally, the system
allows Postal Service personnel to track the status of individual problem assignments,
provides automatic email notification to customers and the facility maintenance office,
and generates reports which the FSO and area management can use.
Maintenance Offices Acceptance of Facilities                                    FA-AR-05-001
 Repair and Alterations Projects in the
 Southeast Area



                          Objective, Scope, and Methodology
The objective of our audit was to evaluate the acceptance rates for facility repair and
alterations projects by maintenance offices in the Southeast Area. Specifically, we
determined whether the maintenance offices declined repair and alteration projects for
valid reasons, and whether there was any correlation between acceptance rates and
the number of grievances related to facility repairs and alterations. To accomplish
our objectives, we reviewed and analyzed the acceptance rates for each of the
nine district maintenance offices in the area. In addition, we reviewed and analyzed
all 1,603 projects that were declined by the maintenance offices from March through
June 2005 and 252 grievance files related to subcontracting of facility repairs and
alterations projects. We also conducted interviews with Postal Service officials from
the Southeast Area office and the Southeast FSO.

We relied on computer-generated data from the FSSP system, including the Weekly
FSSP Report and Problem Status Report by Performance Cluster. We believe the
computer-generated data was sufficiently reliable to support the opinions or conclusions
in this report.

This audit was conducted from March through September 2005, in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with Postal Service officials and included their comments
where appropriate.

                                     Prior Audit Coverage
In an August 11, 2005 management advisory, Data Integrity and Reliability of the
Facilities Single Source Provider System (Report Number FA-MA-05-002), we reported
that the data in the FSSP system was generally relevant, accurate, and complete.
However, we identified errors in the maintenance offices’ acceptance rates for repair
and alteration projects. In addition, we noted the capability to delete or backdate
transactions was not adequately restricted and the system did not provide a log or other
audit trail to track transactions that employees changed or deleted. Postal Service
officials agreed with the recommendations contained in the management advisory and
we considered their taken or planned actions responsive.

                                               Results
We found that the maintenance offices in the Southeast Area declined to perform
facilities repair and alterations projects for valid reasons. As of March 2005, declination
rates ranged from 17 to 36 percent, with an average declination rate of 24 percent.
The maintenance offices declined 1,603 facilities repair and alteration projects from


                                                  2
Maintenance Offices Acceptance of Facilities                                 FA-AR-05-001
 Repair and Alterations Projects in the
 Southeast Area

March through June 2005. We reviewed all the declinations and verified that the work
was normally declined for valid reasons, including capability or availability of
maintenance technicians and lack of highly specialized tools/equipment.

We also reviewed 252 grievance files, and evaluated whether there was any correlation
between acceptance rates and the number of grievance filings related to contracting out
facility repairs and alterations projects. Because the grievance process is multi-tiered
and can span several years, there was not sufficient data to determine whether a
correlation existed between the number of grievance filings and the recent
implementation of the FSSP in the Southeast Area. Consequently, we have no
recommendations for Postal Service officials regarding the issues in this report.

We discussed the results of our review with management and provided them with a
draft report. We have considered management's comments and incorporated them into
the report, as appropriate. We appreciate the cooperation and courtesies provided by
your staff during the review. If you have any questions, or need additional information,
please contact Henry Hoffman, Acting Director, Facilities, or me at (703) 248-2300.




Colleen McAntee
Deputy Assistant Inspector General
 for Field Operations

cc:     Patrick R. Donahoe
        William J. Brown
        Michael L. Goodwin
        Steven R. Phelps




                                               3
